                                              OCCUPATIONAL SAFETY AND
                                              HEALTH ADMINISTRATION

Office of Inspector General—Office of Audit




                                              PROCUREMENT VIOLATIONS AND
                                              IRREGULARITIES OCCURRED IN OSHA’S
                                              OVERSIGHT OF A BLANKET PURCHASE
                                              AGREEMENT




                                                                         Date:    March 31, 2009
                                                                Report Number:   03-09-002-10-001
U.S. Department of Labor                                      March 2009
Office of Inspector General
Office of Audit                                               PROCUREMENT VIOLATIONS AND
                                                              IRREGULARITIES OCCURRED IN OSHA’S
                                                              OVERSIGHT OF A BLANKET PURCHASE
BRIEFLY…                                                      AGREEMENT

Highlights of Report Number: 03-09-002-10-001,                WHAT OIG FOUND
Procurement Violations and Irregularities Occurred            The OIG found violations and irregularities
in OSHA’s Oversight of a Blanket Purchase                     occurred in the administration of the BPA and the
Agreement, to the Deputy Assistant Secretary for              related task orders. OSHA circumvented Federal
Safety and Health, dated March 31, 2009.                      and DOL procurement requirements by using the
                                                              GMSI BPA to obtain consulting services non-
WHY READ THE REPORT                                           competitively from Mr. Kimlin, who was requested
                                                              by then Assistant Secretary Edwin Foulke, Jr. This
In response to a referral from the U.S. Department            was not in the scope of the GMSI BPA.
of Labor’s (DOL) Solicitor concerning possible                Additionally, OSHA did not have proper
contracting improprieties, the Office of Inspector            documentation to approve invoices submitted by
General (OIG) conducted a performance audit of a              GMSI for Mr. Kimlin’s consulting services. Finally,
Blanket Purchase Agreement (BPA), and related                 OSHA allowed GMSI to invoice more hours than
task orders, established between the Occupational             awarded for Mr. Kimlin and approved unallowable
Safety and Health Administration (OSHA) and                   travel expenses incurred by Mr. Kimlin while
Global Management Systems, Incorporated                       commuting between his home in South Carolina
(GMSI). The possible contracting improprieties                and Washington, D.C., in violation of the terms of
involved using the BPA as a means to fulfill a                the BPA. As a result, OSHA cannot justify
request from then Assistant Secretary for                     procuring Mr. Kimlin’s consulting services nor
Occupational Safety and Health, Edwin Foulke, Jr.,            demonstrate that the $681,379 charged for his
to procure the services of Mr. Randy Kimlin.                  work was reasonable. At the time of our audit,
                                                              OIG’s Office of Special Investigations was
WHY OIG CONDUCTED THE AUDIT                                   investigating the matter.

OIG conducted the audit to answer the following               WHAT OIG RECOMMENDED
question:                                                     The OIG recommended that that the Deputy
                                                              Assistant Secretary for Occupational Safety and
    Did violations and irregularities occur in                Health: work with OASAM procurement officials to
    OSHA’s oversight of the BPA and related task              develop an internal policy for obtaining consulting
    orders?                                                   services; recover $681,379 paid to GMSI for
                                                              Mr. Kimlin’s labor and travel costs; and ensure
READ THE FULL REPORT                                          OSHA managers and supervisors do not bypass
                                                              control procedures for administering contracts.
To view the report, including the scope,
methodology, and full agency response, go to:                 HOW AUDITEE RESPONDED
http://www.oig.dol.gov/public/reports/oa/2009/03-09-002-10-   The Deputy Assistant Secretary agreed with the
001                                                           recommendations except for the recovery of
                                                              payments to the contractor, GMSI, for Mr. Kimlin’s
                                                              labor and travel costs. The Deputy Assistant
                                                              Secretary stated that OSHA defers making a final
                                                              response on the recommended recovery until the
                                                              OIG’s Office of Inspections and Special
                                                              Investigations completes its investigation into this
                                                              matter.

                                                              The response did not change the findings and
                                                              recommendations.
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       Violations and Irregularities in an OSHA BPA
                                       Report No. 03-09-002-10-001
                                                     U. S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 1

Objective — Did Violations and Irregularities Occur in OSHA’s Administration of
            the BPA and Related Task Orders?........................................................ 3
         Finding 1 - OSHA Approved a Consultant Position Outside the Scope of
                     the BPA .............................................................................................. 3
         Finding 2 - OSHA Could Not Demonstrate It Received Services for
                     $681,379 Paid to GMSI for Mr. Kimlin ................................................ 6
         Finding 3 - OSHA Authorized Payment for Charges Not Allowed According
                     to the Terms and Conditions of the BPA............................................. 7

Recommendations ........................................................................................................ 9

Appendices
         Appendix A Background ..................................................................................... 13
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 15
         Appendix C Acronyms and Abbreviations .......................................................... 17
         Appendix D Agency Response to Draft Report .................................................. 19




                                                                          Violations and Irregularities in an OSHA BPA
                                                                                          Report No. 03-09-002-10-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       Violations and Irregularities in an OSHA BPA
                                       Report No. 03-09-002-10-001
                                     U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




                        Assistant Inspector General’s Report



Donald G. Shalhoub
Deputy Assistant Secretary for Occupational Safety and Health
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


In response to a referral from the U.S. Department of Labor’s (DOL) Solicitor concerning
possible contracting improprieties, the Office of Inspector General (OIG) conducted a
performance audit of a Blanket Purchase Agreement (BPA), and related task orders,
established between the Occupational Safety and Health Administration (OSHA) and
Global Management Systems, Incorporated (GMSI). The Office of Assistant Secretary
for Administration and Management (OASAM) awarded the BPA to GMSI on behalf of
OSHA. The possible contracting improprieties involved using the BPA as a means to
fulfill a request from then Assistant Secretary for Occupational Safety and Health,
Edwin Foulke, Jr., to procure the services of Mr. Randy Kimlin.

The audit objective was to answer the following question:

   Did violations and irregularities occur in OSHA’s oversight of the BPA and related
   task orders?

The audit focused on the costs invoiced by GMSI to OSHA for Mr. Kimlin’s time and
travel. The amounts billed totaled $681,379 for the period April 2006 through July 2008.

To accomplish the audit objective, we gained an understanding of the process and
requirements for awarding the BPA and task orders to GMSI by interviewing OASAM
procurement officials and OSHA officials involved in overseeing the BPA and task
orders. We obtained and reviewed the invoices for Mr. Kimlin’s labor and travel costs
charged to determine if they were supported and allowable. We gained an
understanding of the controls related to overseeing the BPA and task orders by
interviewing OSHA officials and reviewing a judgmental sample of documentation used
as part of their procedures to account for hours charged under the task order.

RESULTS IN BRIEF

Violations and irregularities occurred in the administration of the BPA and the related
task orders. The scope of the GMSI BPA did not include consulting services; however,

                                                        Violations and Irregularities in an OSHA BPA
                                             1                           Report No.03-09-002-10-001
                                      U. S. Department of Labor – Office of Inspector General


Mr. Kimlin was authorized, through the task orders awarded against the GMSI BPA, to
serve as a consultant to the then Assistant Secretary for OSHA. OSHA circumvented
Federal and DOL procurement requirements by using the GMSI BPA to obtain
consulting services non-competitively from Mr. Kimlin, who was requested by then
Assistant Secretary Edwin Foulke, Jr. Additionally, OSHA did not have proper
documentation to approve invoices submitted by GMSI for Mr. Kimlin’s consulting
services. Finally, OSHA allowed GMSI to invoice more hours than awarded for
Mr. Kimlin and approved unallowable travel expenses incurred by Mr. Kimlin while
commuting between his home in South Carolina and Washington, D.C., in violation of
the terms of the BPA. As a result, OSHA cannot justify procuring Mr. Kimlin’s consulting
services nor demonstrate that the $681,379 charged and approved for his labor hours
and travel was reasonable for the work performed. Included in the $681,379, were
charges of $153,161 for labor hours that exceeded the hours authorized in the task
orders and $95,658 for unallowable commuting costs. At the time of our audit, OIG’s
Office of Inspections and Special Investigations was investigating the matter.

In response to the draft report, the Deputy Assistant Secretary agreed to work with the
OASAM procurement office to refine OSHA policies related to hiring contractors for
advisory and assistance services and review controls and procedures for administering
contracts. The Deputy Assistant Secretary did not fully agree with the recommended
recovery of all costs paid to the contractor, GMSI, for Mr. Kimlin’s labor and travel costs.
He believes the disallowance of all costs associated with Mr. Kimlin is a broad rejection
of the expense related to the work that was provided by Mr. Kimlin and is unnecessarily
injurious to GMSI. The Deputy Assistant Secretary stated that the Agency defers
making a final response to this recommendation until OIG’s Office of Inspections and
Special Investigations completes its current investigation into this matter and provides
its findings to OSHA. However, the Deputy Assistant Secretary acknowledged that
$95,658 in commuting travel expenses for Mr. Kimlin was not allowed by terms of the
BPA and OSHA will seek recovery of these costs from GMSI. See Appendix D for the
entire response.

The Deputy Assistant Secretary’s response did not change the audit findings and
recommendations. Concerning the recovery from GMSI of $681,379 total costs paid to
Mr. Kimlin, the FAR 31.205-33(f) provides that fees for services rendered are allowable
only when supported by evidence of the nature and scope of the services furnished.
The FAR is supported by internal control standards for Federal Government that require
agencies to document all transactions and other significant events and the
documentation be readily available for examination. OSHA was not able to provide
products or deliverables produced by Mr. Kimlin or independent records to support the
labor hours charged.




                                                     Violations and Irregularities in an OSHA BPA
                                             2                        Report No.03-09-002-10-001
                                          U. S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Did Violations and Irregularities Occur in OSHA’s Administration of
            the BPA and Related Task Orders?

OSHA used the GMSI BPA as a means to fulfill a request from the then Assistant
Secretary for Occupational Safety and Health, Edwin Foulke, Jr., to procure the
consulting services of Mr. Randy Kimlin. Violations and irregularities occurred in the
oversight of the BPA and the related task orders. The scope of the GMSI BPA did not
include consulting services; however, Mr. Kimlin was authorized, through the task
orders awarded against the GMSI BPA, to serve as a consultant to then Assistant
Secretary Foulke. Additionally, OSHA did not have proper documentation to approve
invoices submitted by GMSI for Mr. Kimlin’s consulting services. Finally, OSHA allowed
GMSI to invoice more hours than awarded for Mr. Kimlin and approved unallowable
travel expenses incurred by Mr. Kimlin while commuting between his home in South
Carolina and Washington, D.C., in violation of the terms of the BPA. As a result, OSHA
cannot justify procuring Mr. Kimlin’s consulting services nor demonstrate that the
$681,379 charged and approved for his labor hours and travel was reasonable for the
work performed.

Finding 1 - OSHA Approved a Consultant Position Outside the Scope of the BPA

OSHA approved a consultant position outside the scope of the BPA. The Statement of
Work in the BPA did not include the functions and responsibilities of a consultant. This
occurred because OSHA wanted to expedite then Assistant Secretary Foulke’s request
to procure the consulting services of Mr. Kimlin. The consultant position should have
been procured separately as an Advisory and Assistance Contract, subject to the
competition requirements under the Federal Acquisition Regulation (FAR) regulations
and DOL requirements.

Federal law, the FAR, and DOL policy require that work outside the scope of an existing
contract be competed. If the work is not competed, the acquisition should be adequately
justified and approved by the Procurement Review Board and the Chief Acquisition
Officer. Also, the FAR states a contract for consultant services should be awarded as an
Advisory and Assistance Services contract. Specifically:

    •   The U.S. Code1 states that a task order cannot change the scope of the original
        contract without a modification.

    •   The FAR2 requires all acquisitions, unless they are within the scope of the
        original contract, to be competed unless it is supported by a written justification.



1
  Title 41, Public Contracts, Chapter 4, Procurement Procedures, Subchapter IV, Procurement
  Procedures, Section 253h(e)
2
  FAR Subpart 6.1, Full and Open Competition, 6.303-1(a)

                                                           Violations and Irregularities in an OSHA BPA
                                                  3                         Report No.03-09-002-10-001
                                           U. S. Department of Labor – Office of Inspector General


      •   DOL policy3 requires any acquisition more than $100,000 and not competed
          must be reviewed by the Procurement Review Board and approved by the Chief
          Acquisition Officer (CAO).

      •   The FAR4 requires a contract for consultant services to be issued as an Advisory
          and Assistance Service contract subject to a determination that sufficient
          personnel is not available within the agency to perform the services. Agencies
          may contract for advisory and assistance services, when essential to the
          agency's mission, to:

                 Obtain outside points of view to avoid too limited a judgment on critical
                 issues;

                 Obtain advice regarding developments in industry, university, or
                 foundation research;

                 Obtain the opinions, special knowledge, or skills of noted experts;

                 Enhance the understanding of, and develop alternative solutions to,
                 complex issues;

                 Support and improve the operation of organizations; or

                 Ensure the more efficient or effective operation of managerial or hardware
                 systems.

The BPA was awarded to GMSI to provide administrative management support to
OSHA in the areas of management data, personnel management, program budgeting
and planning, financial control, administrative management systems, and administrative
services. The BPA was for firm fixed, labor hours category for time and material
services and listed 16 different labor categories. The statement of work in the BPA and
the task orders showed GMSI was responsible for providing administrative and support
services. The following is a list of functions listed in the BPA statement of work:

      •   Provide clerical, secretarial, administrative, and analytical support to various
          OSHA offices, as requested.

      •   Support the data input and customer service functions for OSHA publication
          processing operation.

      •   Provide data input, information processing and systems management for
          financial management.



3
    Department of Labor Manual Series (DLMS) 2, Chapter 830, paragraph 836 B
4
    FAR 37.203 and 204

                                                          Violations and Irregularities in an OSHA BPA
                                                   4                       Report No.03-09-002-10-001
                                     U. S. Department of Labor – Office of Inspector General


   •   Assist with special projects such as prepare and/or analyze data and develop
       reports related to the OSHA mission.

   •   Plan, develop, and execute an efficient and effective contract management
       program which adheres to the concepts, principles, and practices of the Federal
       government and the private sector.

   •   Identify potential problems, strategize corrective actions, and develop
       implementation progress reports.

   •   Develop and/or maintain any OSHA-related program or database, as required by
       various OSHA offices.

   •   Provide support at the help desk operations, information processing, systems
       management functions, office operations, and customer service function for the
       OSHA.

   •   Provide adequate oversight and supervision of all personnel assigned to perform
       the required functions.

We concluded the nature of Mr. Kimlin’s work was consulting services, and as such,
was not within the scope of the BPA. OSHA officials said Mr. Kimlin worked directly for
then Assistant Secretary Foulke as a consultant. His hours were billed under the
position of Director of Programs, which was not one of the 16 positions listed in the
BPA. We reviewed the Director of Programs’ responsibilities as listed in the General
Services Administration Federal Supply Schedule (FSS) for GMSI and found they were
for managing GMSI staff, not providing outside consulting services. OSHA and GMSI
officials confirmed that the Director of Programs position was used solely for billing
purposes; this position has the highest hourly rate for the GMSI positions listed in the
FSS.

OSHA officials said they used the BPA to expedite the then Assistant Secretary's
request to procure Mr. Kimlin’s services. They stated Mr. Kimlin was not interested in
becoming a Federal employee. Consequently, OSHA officials felt the most expeditious
way to bring Mr. Kimlin on board was to add him under the BPA with GMSI. Mr. Kimlin
was ultimately hired by GMSI's subcontractor, Technical Assistance and Training
Corporation (TATC). OSHA officials told us they felt that the arrangement was justifiable
because TATC had previously provided OSHA with upper management staff to perform
non-administrative work.

OSHA cannot demonstrate there was an adequate justification for procuring Mr. Kimlin's
services. The services provided by Mr. Kimlin constituted advisory and assistance
services and, as such, were outside the scope of the BPA. OSHA did not comply with
Federal laws and regulations and DOL policy which require work for an Advisory and
Assistance Services contracts be procured either through a full and open competition or
as a sole source award with proper justification and the required departmental review

                                                    Violations and Irregularities in an OSHA BPA
                                            5                        Report No.03-09-002-10-001
                                           U. S. Department of Labor – Office of Inspector General


and approval. Following these requirements could have provided OSHA adequate
assurance that Mr. Kimlin's services were justified and reasonable.

Finding 2 - OSHA Could Not Demonstrate It Received Services for $681,379 Paid
            to GMSI for Mr. Kimlin

OSHA could not demonstrate it received services for $681,379 invoiced by GMSI for
Mr. Kimlin’s consulting services. OSHA provided neither evidence of products or
deliverables produced by Mr. Kimlin or an independent record of the hours he charged.
This occurred because OSHA did not ensure the task order statement of work
contained specific duties and deliverable work products expected from Mr. Kimlin. Also,
OSHA did not follow internal policies and procedures designed to ensure that contractor
staff time charged to task orders were accounted for and accurately reflected in invoices
submitted by GMSI. As a result, OSHA cannot show that $572,946 in labor hours and
$108,434 in travel expenses invoiced for Mr. Kimlin was appropriate.

Internal control standards for the Federal Government5 require agencies to document all
transactions and other significant events and have the documentation readily available
for examination. The FAR6 provides that fees for services rendered are allowable only
when supported by evidence of the nature and scope of the service furnished. Evidence
necessary to determine that work performed is proper and does not violate law or
regulation shall include:

    (1) Details of all agreements (e.g., work requirements, rate of compensation, and
        nature and amount of other expenses, if any) with the individuals or organization
        providing the service and details of actual services performed;

    (2) Invoices or billings submitted by consultants, including sufficient detail on the
        time expended and nature of the actual services provided; and

    (3) Consultants' work products and related documents, such as trip reports indicating
        persons visited and subjects discussed, minutes of meetings and supporting
        memoranda and reports.

For the period April 2006 to July 2008, GMSI billed $681,379 for Mr. Kimlin’s services,
including $572,946 for direct labor and $108,434 for travel. GMSI used monthly time
sheets showing the hours Mr. Kimlin worked to prepare invoices for labor charges.
Mr. Kimlin prepared travel expense reports with supporting documentation which GMSI
used to invoice OSHA for travel.

OSHA officials said they did not have any work products from Mr. Kimlin. They relied on
then Assistant Secretary Foulke to monitor Mr. Kimlin’s work. Additionally, there was no
record of sign-in/sign-out logs to track the hours Mr. Kimlin worked. This occurred

5
  Standards for Internal Controls in the Federal Government issued by the US General Accountability
Office, Appropriate Documentation of Transactions and Internal Control
6
  FAR 31.205-33(f)

                                                           Violations and Irregularities in an OSHA BPA
                                                   6                        Report No.03-09-002-10-001
                                      U. S. Department of Labor – Office of Inspector General


because the GMSI task orders OSHA used for Mr. Kimlin did not contain a statement of
work or expected deliverables specifically for him. Instead the statement of work and
expected deliverables consisted of generic language that applied to administrative and
support services that GMSI typically provided to OSHA. Additionally, OSHA did not
follow its internal procedures for verifying hours worked by contractor staff. OSHA
required GMSI staff to complete sign-in and sign-out logs to document their hours
worked. OSHA used the logs to independently verify the hours charged on the GMSI
invoices. However, OSHA officials told us they did not require Mr. Kimlin to complete
the logs.

Without any work products and deliverables from Mr. Kimlin and without verification of
the hours he worked, OSHA officials cannot demonstrate they received services for the
$681,379 paid to GMSI for Mr. Kimlin’s work. Consequently, OSHA cannot show that
the amount paid for Mr. Kimlin was appropriate. OIG’s Office of Inspections and Special
Investigations was investigating this matter at the time of our audit.

Finding 3 - OSHA Authorized Payment for Charges Not Allowed According to the
            Terms and Conditions of the BPA

OSHA authorized payment for charges specifically unallowable by the terms and
conditions of the BPA. OSHA approved GMSI invoices that significantly exceeded the
hours awarded in the task orders for Mr. Kimlin and approved unallowable travel
expenses that he incurred while commuting between his residence in South Carolina
and the OSHA National Office. These improper payments occurred because OSHA
officials did not monitor the hours charged by GMSI for Mr. Kimlin and were unaware
that the terms of the BPA did not allow costs be billed for travel between a contractor’s
residence and OSHA’s National Office. As a result, OSHA paid GMSI $248,819 for
costs not allowed by the BPA terms and conditions, including $153,161 for 1,064 in
labor hours that exceeded the hours authorized in the task order and $95,658 for Mr.
Kimlin’s commuting travel expenses that were not allowed by the BPA terms and
conditions.

The BPA7 states to enhance flexibility and to allow the BPA holder to determine the
optimum labor mix for the order, the BPA holder may, without notice to the Government,
increase or decrease the number of hours for each category specified in the individual
order by no more than zero (0) percent. The BPA holder will not be paid more than the
ceiling price of any individual order.

For travel costs, the BPA8 does not allow DOL to reimburse GMSI for the cost of travel
between contractor staff's residence and DOL. The BPA states that travel costs subject
to reimbursement are limited to travel occurring at the direction of the Government,
performed in conjunction with a specific requirement for a trip authorized in the order.



7
    BPA paragraph A.4.D
8
    BPA paragraph A.5

                                                    Violations and Irregularities in an OSHA BPA
                                             7                       Report No.03-09-002-10-001
                                     U. S. Department of Labor – Office of Inspector General


Labor Hours Paid Exceeded the Labor Hours Awarded

The number of hours GMSI billed for Mr. Kimlin’s services significantly exceeded the
hours awarded in the task orders. For the period between April 2006 to July 2008,
OSHA awarded three task orders to GMSI that included 2,948 hours totaling $419,786
for Mr. Kimlin. However, OSHA approved GMSI's invoices that significantly exceeded
the hours awarded in the three task orders for Mr. Kimlin. OSHA approved invoices that
included 4,012 hours for Mr. Kimlin totaling $572,946. The following table provides the
hours and amount awarded and approved for payment under each task order:

Table 1 – Comparison of Hours Awarded and Approved
Task Order                       Awarded        Approved                   Difference
Number                    Hours       Amount Hours   Amount             Hours    Amount *
DOLU059F22606                   300 $ 39,375    465 $ 61,031               165 $ 21,656
DOLU069F24506                   600 $ 82,488  1,687 $231,929             1,087 $149,441
DOLU079F25979                2,048 $297,923   1,860 $279,986             (188) ($17,936)
Total                        2,948 $419,786   4,012 $572,946             1,064 $153,161
* Totals rounded to the dollar.

The BPA does not allow the contractor to increase or decrease the number of hours for
a labor category awarded in the task orders without DOL’s approval. OSHA and
OASAM (the servicing procurement agency) officials agreed the task orders should
have been modified to increase the hours awarded for Mr. Kimlin's position.

OSHA did not properly monitor the hours charged by GMSI for Mr. Kimlin's services.
OSHA considered the hours for each labor category in the task orders to be only
estimates. OSHA officials said they were mainly concerned that GMSI’s invoices did not
exceed the total ceiling amount of the task order. Therefore, OSHA monitored the hours
for the whole task order rather than the hours specified for Mr. Kimlin.

OSHA Approved Unallowable Travel Costs

OSHA also did not adhere to the terms of the BPA in approving unallowable travel
expenses Mr. Kimlin incurred as a result of commuting between his home in South
Carolina and OSHA's National Office in Washington, DC. Commuting expenses
included air fares, lodging, per diem, automobile miles driven and other incidental
expenses such as public transit, parking, and taxi fares. For the period from April 2006
to July 2008, the commuting expense totaled $95,658.

The BPA does not allow the contractor to bill for staff commuting costs. OSHA officials
were not aware of the BPA's limitation on commuting costs and GMSI interpreted the
costs to be allowable because then Assistant Secretary Faulke directed it. However, we
concluded the BPA is clear on the limitation of the commuting costs.




                                                   Violations and Irregularities in an OSHA BPA
                                            8                       Report No.03-09-002-10-001
                                     U. S. Department of Labor – Office of Inspector General


OSHA paid GMSI $248,819 for costs not allowed by the BPA terms and conditions.
OSHA paid $153,161 for 1,064 labor hours billed in excess of the hours authorized in
the task order, and $95,658 for Mr. Kimlin’s unallowable commuting travel expenses.

Recommendations

We recommend that the Assistant Secretary for Occupational Safety and Health:

1. Work with OASAM procurement officials to develop an internal policy for obtaining
   consulting services that complies with applicable Federal regulations and DOL
   policies.

2. Recover $681,379 paid to GMSI for Mr. Kimlin’s labor and travel costs.

3. Ensure OSHA managers and supervisors do not bypass control procedures already
   in place for administering contracts.

Agency Response to the Draft Report

In response to the draft Report, the Deputy Assistant Secretary agreed to work with the
OASAM procurement office to refine agency policies related to hiring contractors for
advisory and assistance services. The Deputy Assistant Secretary further agreed to
review existing controls and procedures for administering contracts and taking
appropriate action to ensure these control procedures are well understood and properly
applied by OSHA managers and supervisors.

The Deputy Assistant Secretary did not fully agree with the recommended recovery of
all costs paid to the contractor, GMSI, for Mr. Kimlin’s labor and travel costs. He
believes the disallowance of all costs associated with Mr. Kimlin is a broad rejection of
the costs related to the work that was provided by Mr. Kimlin and is unnecessarily
injurious to GMSI. The Deputy Assistant Secretary stated that the Agency defers
making a final response to this recommendation until the OIG’s Office of Special
Investigations completes its current investigation into this matter and provides its
findings to OSHA. However, the Deputy Assistant Secretary acknowledged that $95,658
in commuting travel expenses for Mr. Kimlin was not allowed by terms of the BPA and
OSHA will seek recovery of these costs from GMSI.

See Appendix D for the entire response.

OIG Conclusion

Concerning the recovery from GMSI of $681,379 total costs paid to Mr. Kimlin, the FAR
31.205-33(f) provides that fees for services rendered are allowable only when supported
by evidence of the nature and scope of the services furnished. The FAR is supported by
internal control standards for Federal Government that require agencies to document all
transactions and other significant events and the documentation be readily available for


                                                   Violations and Irregularities in an OSHA BPA
                                            9                       Report No.03-09-002-10-001
                                   U. S. Department of Labor – Office of Inspector General


examination. OSHA was not able to provide products or deliverable produced by Mr.
Kimlin or independent records to support the labor hours charged.

Our findings and recommendations remain unchanged.




Elliot P. Lewis




                                                 Violations and Irregularities in an OSHA BPA
                                         10                       Report No.03-09-002-10-001
             U. S. Department of Labor – Office of Inspector General




Appendices




                           Violations and Irregularities in an OSHA BPA
                   11                       Report No.03-09-002-10-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       Violations and Irregularities in an OSHA BPA
               12                       Report No.03-09-002-10-001
                                      U. S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

In response to a referral from DOL’s Solicitor concerning possible contracting
improprieties, OIG conducted a performance audit of BPA #DOLQ059F21654, and
related task orders, established between OSHA and GMSI. The possible contracting
improprieties involved using the BPA to fulfill a request from then Assistant Secretary for
Occupational Safety and Health, Edwin Foulke, Jr., to procure the consulting services of
Mr. Randy Kimlin, in violation of the FAR and DOL policies.

OASAM awarded the BPA to GMSI on behalf of OSHA. Under the BPA, GMSI provided
OSHA with personnel to perform management support services. The BPA was effective
August 1, 2005, with an established base year and 4 option years ending July 31, 2010.
The maximum estimated ceiling price for all 5 years was $20,429,364.80 and the BPA
allowed other DOL agencies to issue task orders up to $5,000,000. The management
support services include areas such as data and information systems, administrative,
logistic, financial management and customer service operations. OASAM awarded
GMSI the BPA against the FSS Information Technology Contract #GS-35F-4638G.




                                                    Violations and Irregularities in an OSHA BPA
                                            13                       Report No.03-09-002-10-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       Violations and Irregularities in an OSHA BPA
               14                       Report No.03-09-002-10-001
                                      U. S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

   Did violations and irregularities occur in OSHA’s oversight of the BPA and related
   task orders?

Scope

The audit focused on OSHA’s administration of the GMSI BPA and task orders for
Mr. Kimlin’s services. We audited the total costs of $681,379 that GMSI billed OSHA for
Mr. Kimlin’s services during the period April 2006 through July 2008.

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing OSHA policies and procedures for
administering the BPA task orders. We confirmed our understanding of these controls
and procedures through interviews and documentation review. Our assessment of
internal controls included the procedures used to review and approve contractor
invoices.

Methodology

To accomplish the audit objective, we gained an understanding of the process and
requirements for awarding the BPA and task orders to GMSI by interviewing OASAM
procurement officials and OSHA officials involved in administering the BPA and task
orders. We also reviewed applicable Federal laws, FAR, and DOL requirements in the
Department of Labor Manual Series 2 (DLMS). We reviewed the BPA and task orders to
gain an understanding of the services to be provided and to identify requirements for the
types of costs and labor categories allowed. We obtained and reviewed the 28 invoices
that contained Mr. Kimlin’s labor and travel costs to determine if they were supported
and allowable. We interviewed appropriate officials from OSHA and GMSI to obtain an
understanding of the process used to procure Mr. Kimlin’s services. We reviewed a



                                                    Violations and Irregularities in an OSHA BPA
                                            15                       Report No.03-09-002-10-001
                                     U. S. Department of Labor – Office of Inspector General


judgmental sample of documentation used by OSHA as part of their procedures to
account for hours charged under the task order.

In performing the audit, we evaluated internal controls used by OSHA for reasonable
assurance that the task orders for Mr. Kimlin’s services were administered in
accordance with Federal and DOL requirements. Our consideration of OSHA’s internal
controls for administering the task orders for Mr. Kimlin’s work would not necessarily
disclose all matters that might be reportable conditions. Because of inherent limitations
in internal controls, misstatements, losses, or noncompliance may nevertheless occur
and may not be detected.

We did not use computer-generated data in performing the audit. We assessed the
reliability of information gathered by OSHA and determined that it was sufficient and
appropriate to provide a reasonable basis for our findings and conclusions within the
context of our audit objectives.

Criteria

We used the following criteria to accomplish the audit objectives:

      FAR Subpart 8.4 - contracts awarded using FSS and limited source justifications

      FAR Part 37 - service contracting

      41 USC Section 253h - task and delivery order contracts.

      41 USC Section 253i - task order contracts for advisory and assistance services.

      DLMS 2 Chapter 830 - BPAs

      Department of Labor Acquisitions Regulations Subpart 2908.4 - FSS

      The GMSI BPA #DOLQ059F21654

      Standards for Internal Control in the Federal Government




                                                    Violations and Irregularities in an OSHA BPA
                                            16                       Report No.03-09-002-10-001
                                 U. S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations


     BPA        Blanket Purchase Agreement

     CAO        Chief Acquisition Officer

     DLMS       Department of Labor Manual Series

     DOL        U.S. Department of Labor

     FAR        Federal Acquisition Regulation

     FSS        Federal Supply Schedule

     GMSI       Global Management Systems, Incorporated

     GAO        Government Accountability Office

     OASAM      Office of Assistant Secretary for Administration and Management

     OIG        Office of Inspector General

     OSHA       Occupational Safety and Health Administration

     TATC       Technical Assistance and Training Corporation




                                               Violations and Irregularities in an OSHA BPA
                                       17                       Report No.03-09-002-10-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       Violations and Irregularities in an OSHA BPA
               18                       Report No.03-09-002-10-001
                                U. S. Department of Labor – Office of Inspector General


                                                                          Appendix D
OSHA Response to Draft Report




                                              Violations and Irregularities in an OSHA BPA
                                      19                       Report No.03-09-002-10-001
U. S. Department of Labor – Office of Inspector General




              Violations and Irregularities in an OSHA BPA
      20                       Report No.03-09-002-10-001
U. S. Department of Labor – Office of Inspector General




              Violations and Irregularities in an OSHA BPA
      21                       Report No.03-09-002-10-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                       Violations and Irregularities in an OSHA BPA
               22                       Report No.03-09-002-10-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

        Online:      http://www.oig.dol.gov/hotlineform.htm
        Email:       hotline@oig.dol.gov

        Telephone:   1-800-347-3756
                     202-693-6999

        Fax:         202-693-7020

        Address:     Office of Inspector General
                     U.S. Department of Labor
                     200 Constitution Avenue, N.W.
                     Room S-5506
                     Washington, D.C. 20210
